Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Correctional Facilities on Tribal Lands Grant Administered by the Red Lake Band of Chippewa Indians
Red Lake, Minnesota


GR-50-03-003


March, 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of the Correctional Facilities on Tribal Lands grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Red Lake Band of Chippewa Indians (Tribe) located in Red Lake, Minnesota.  The purpose of this grant was to construct a correctional facility on tribal land for the incarceration of offenders subject to tribal jurisdiction.  As of May 31, 2002, the Tribe was awarded a total of $11,216,083 to design and construct a new facility for adult and juvenile offenders as well as a juvenile work camp.  We tested the Tribe's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit revealed a general lack of controls over the accounting process and records related to the grant.  Of the $7,260,279 expended as of May 31, 2002, we tested transactions totaling $3,954,369 and found that many transactions lacked adequate support or they were unallowable.  As a result, we question $1,831,866 in grant funds received and recommend an additional $114,303 be put to better use.1  In brief, we found:

Significant weaknesses in the Tribe's accounting practices resulted in duplicate payments and postings, and accounting entries that were either incorrect or untimely.  Also, the Tribe made a significant number of payments that were not properly approved, based upon estimates, or without original invoices.

The Tribe entered into two sole-source contracts with a related party and did not request nor receive the required OJP approvals.

The Tribe received reimbursement for costs related to architectural fees, personnel, and travel that were not approved by OJP.

A conflict of interest existed between a construction employee and a vendor.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.